March 3, 2021

Seth P. Waxman
+1 202 663 6800 (t)
+1 202 663 6363 (f)
seth.waxman@wilmerhale.com

VIA HAND DELIVERY
& ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Students for Fair Admissions, Inc. v. President & Fellows of Harvard College,
No. 20-1199

Dear Mr. Harris,
I am counsel of record to respondent President and Fellows of Harvard College in the abovecaptioned case. The petition for a writ of certiorari in this case was filed on February 25, 2021,
and was docketed on March 1, 2021. The response to the petition is currently due on
Wednesday, March 31, 2021.
Due to the press of other business, including oral argument in this Court on March 31 in NCAA v.
Alston, No. 20-512, I respectfully request a 45-day extension of time within which to file a
response to the petition. Respondent has not previously sought any extensions in this matter.
Petitioner does not oppose the requested extension.

Respectfully submitted,
/s/ Seth P. Waxman
Seth P. Waxman

Cc: William S. Consovoy

